      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                        Washington, D.C. 20201

February 7, 2012

TO:            Peter Budetti
               Deputy Administrator and Director
               Center for Program Integrity
               Centers for Medicare & Medicaid Services

               Deborah Taylor
               Director and Chief Financial Officer
               Office of Financial Management
               Centers for Medicare & Medicaid Services

FROM:          /Brian P. Ritchie/
               Assistant Inspector General for the
                 Centers for Medicare & Medicaid Services Audits

SUBJECT:       Medicare Compliance Review of St. Vincent’s Medical Center for Calendar
               Years 2009 and 2010 (A-01-11-00517) and Medicare Compliance Review of
               Riverside Methodist Hospital for Calendar Years 2008 Through 2010
               (A-05-11-00058)

Attached, for your information, are advance copies of our final reports for two of our hospital
compliance reviews. We will issue these reports to St. Vincent’s Medical Center and Riverside
Methodist Hospital within 5 business days.

These reports are part of a series of the Office of Inspector General’s hospital compliance
initiative, designed to review multiple issues concurrently at individual hospitals. These reviews
of Medicare payments to hospitals examine selected claims for inpatient and outpatient services.

If you have any questions or comments about these reports, please do not hesitate to contact me
at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov, or your staff may contact the
respective Regional Inspectors General for Audit Services:

St. Vincent’s Medical Center
Michael J. Armstrong, Regional Inspector General for Audit Services, Region I
(617) 565-2689, email – Michael.Armstrong@oig.hhs.gov

Riverside Methodist Hospital
Sheri L. Fulcher, Regional Inspector General for Audit Services, Region V
(312) 353-2618, email – Sheri.Fulcher@oig.hhs.gov


Attachment

cc:
Jacquelyn White, Director
Office of Strategic Operations and Regulatory Affairs
Centers for Medicare & Medicaid Services
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601
February 9, 2012

Report Number: A-05-11-00058

Mr. Andrew S. Quinn, Esq.
Senior Vice President & Chief Ethics and Compliance Officer
Ohio Health Corporation
180 East Broad Street, 30th Floor
Columbus, OH 43215

Dear Mr. Quinn:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Compliance Review of Riverside Methodist
Hospital for Calendar Years 2008 Through 2010. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Jaime Saucedo, Audit Manager, at (312) 353-8693 or through email at
Jaime.Saucedo@oig.hhs.gov. Please refer to report number A-05-11-00058 in all
correspondence.

                                             Sincerely,



                                             /Sheri L. Fulcher/
                                             Regional Inspector General
                                               for Audit Services
Enclosure
Page 2 – Mr. Andrew S. Quinn, Esq.


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




     MEDICARE COMPLIANCE
     REVIEW OF RIVERSIDE
    METHODIST HOSPITAL FOR
     CALENDAR YEARS 2008
        THROUGH 2010




                      Daniel R. Levinson
                       Inspector General

                        February 2012
                        A-05-11-00058
                         Notices

    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.


OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

Riverside Methodist Hospital (the Hospital) is a 1,059-bed acute care hospital located in
Columbus, Ohio. Medicare paid the Hospital approximately $549 million for 56,579 inpatient
and 373,583 outpatient claims for services provided to beneficiaries during calendar years (CY)
2008 through 2010 based on CMS’s National Claims History data.

Our audit covered approximately $1.9 million in Medicare payments to the Hospital for 104
inpatient and 62 outpatient claims that we identified as potentially at risk for billing errors.
These 166 claims had dates of service in CYs 2008 through 2010.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                  i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 142 of the 166 claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for 24
selected inpatient and outpatient claims, resulting in overpayments totaling $107,070 for CYs
2008 through 2010. Specifically, 12 inpatient claims had billing errors, resulting in
overpayments totaling $67,929, and 12 outpatient claims had billing errors, resulting in
overpayments totaling $39,141. Overpayments occurred primarily because the Hospital did not
have adequate controls to prevent incorrect billing of Medicare claims.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $107,070, consisting of $67,929 in overpayments for
       12 incorrectly billed inpatient claims and $39,141 in overpayments for 12 incorrectly
       billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

HOSPITAL COMMENTS

In written comments on our draft report, the Hospital concurred with our recommendations. The
Hospital stated that the largest number of mistakes detailed in our report involved previously
identified OIG risk areas. The Hospital also stated that it is committed to ethical and compliant
practices and will continue to address areas specified in the report where human error was the
overriding cause of failure in existing controls. Finally, the Hospital stated that overpaid
amounts have been corrected and resubmitted to the Medicare Administrative Contractor.

The Hospital’s comments are included in their entirety as the Appendix.




                                                ii
                                                   TABLE OF CONTENTS
                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ..........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................2
         Medicare Requirements for Hospital Claims and Payments .........................................2
         Riverside Methodist Hospital ........................................................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................5
          Inpatient Manufacturer Credits for Replaced Medical Devices ....................................5
          Inpatient Short Stays ......................................................................................................5
          Inpatient Transfers .........................................................................................................5

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................6
          Outpatient Manufacturer Credits for Replaced Medical Devices ..................................6
          Outpatient Dental Services ............................................................................................6

      RECOMMENDATIONS .......................................................................................................7

      HOSPITAL COMMENTS.....................................................................................................7

APPENDIX

       HOSPITAL COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals. 1

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 2 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to
identify and group the services within each APC group. 3 All services and items within an APC
group are comparable clinically and require comparable resources.


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.
2
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
3
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

                                                         1
Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. The types of payments to hospitals reviewed by this and related audits
included payments for claims billed for:

    •   inpatient same-day discharge and readmissions,

    •   inpatient short stays,

    •   inpatient claims billed with high severity level DRG codes,

    •   inpatient hospital-acquired conditions and present on admission indicator reporting,

    •   inpatient claims paid in excess of charges,

    •   inpatient psychiatric facility interrupted stays,

    •   inpatient transfers,

    •   inpatient and outpatient manufacturer credits for replaced medical devices,

    •   outpatient dental services, and

    •   outpatient surgeries billed with units greater than one.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.



                                                   2
The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

Riverside Methodist Hospital

Riverside Methodist Hospital (the Hospital) is a 1,059-bed acute care hospital located in
Columbus, Ohio. Medicare paid the Hospital approximately $549 million for 56,579 inpatient
and 373,583 outpatient claims for services provided to beneficiaries during calendar years (CY)
2008 through 2010 based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $1,887,189 in Medicare payments to the Hospital for 166 claims that we
judgmentally selected as potentially at risk for billing errors. These 166 claims had dates of
service in CYs 2008 through 2010 and consisted of 104 inpatient and 62 outpatient claims.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We based our review on selected billing requirements and did
not use medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review allowed us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital during July and August 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;



                                                 3
   •   extracted the Hospital’s inpatient and outpatient paid claims data from CMS’s National
       Claims History file for CYs 2008 through 2010;

   •   obtained information on known credits for replacement medical devices from the device
       manufacturers for CYs 2008 through 2010;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   selected a judgmental sample of 166 claims (104 inpatient and 62 outpatient) for detailed
       review;

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
       claims;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 142 of the 166 claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for 24
selected inpatient and outpatient claims, resulting in overpayments totaling $107,070 for CYs
2008 through 2010. Specifically, 12 inpatient claims had billing errors, resulting in
overpayments totaling $67,929, and 12 outpatient claims had billing errors, resulting in
overpayments totaling $39,141. Overpayments occurred primarily because the Hospital did not
have adequate controls to prevent incorrect billing of Medicare claims.

                                                4
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 12 of the 104 sampled inpatient claims that we
reviewed. These errors resulted in overpayments totaling $67,929.

Inpatient Manufacturer Credits for Replaced Medical Devices

Federal regulations (42 CFR § 412.89) require reductions in the inpatient prospective payment
for the replacement of an implanted device if (1) the device is replaced without cost to the
provider, (2) the provider receives a full credit for the cost of a device, or (3) the provider
receives a credit equal to 50 percent or more of the cost of the device.

The Manual, chapter 3, section 100.8 states that to correctly bill for a replacement device that
was provided with a credit, the hospital must code its Medicare claims with a combination of
condition code 49 or 50, along with value code “FD.”

For 8 of the 16 sampled claims, the Hospital received a reportable medical device credit for a
replaced medical device from a manufacturer but did not adjust its inpatient claim with the
proper value and condition codes to reduce payment as required. The Hospital stated that these
errors occurred because, at the time the claims were billed, it did not have policies and
procedures in place to report credits from the device manufacturers. As a result, the Hospital
received overpayments of $51,020.

Inpatient Short Stays

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 3 of the 34 sampled claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services. The
Hospital attributed the patient admission errors to human error by the case management
department. As a result, the Hospital received overpayments totaling $9,946. 4

Inpatient Transfers

Federal regulations (42 CFR § 412.4(c)) state that a discharge of a hospital inpatient is
considered a transfer when the patient’s discharge is assigned to one of the qualifying DRGs and
the discharge is to a home under a written plan of care for the provision of home health services
from a home health agency and those services begin within 3 days after the date of discharge. A
hospital that transfers an inpatient under the above circumstances is paid a graduated per diem


4
  The Hospital may bill Medicare Part B for a limited range of services related to some of these three incorrect
Medicare Part A short-stay claims. We were unable to determine the effect that billing Medicare Part B would have
on the overpayment amount because these services had not been billed or adjudicated by the MAC prior to the
issuance of our report.

                                                        5
rate for each day of the patient’s stay in that hospital, not to exceed the full DRG payment that
would have been paid if the patient had been discharged to another setting (42 CFR § 412.4(f)).

For the one sampled claim, the Hospital incorrectly billed Medicare for a patient discharge that
should have been billed as a transfer. For this claim, the Hospital should have coded the
discharge status to a home under a written plan of care for the provision of home health services,
instead of as a discharge to home. Accordingly, the Hospital should have received the per diem
payment instead of the full DRG payment. The Hospital stated that this error occurred due to a
clerical error of inadvertently entering the appropriate patient status code into the wrong field on
the Medicare claim form. As a result, the Hospital received an overpayment of $6,963.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 12 of 62 sampled outpatient claims that we
reviewed. These errors resulted in overpayments totaling $39,141.

Outpatient Manufacturer Credits for Replaced Medical Devices

Federal regulations (42 CFR § 419.45) require a reduction in the outpatient prospective payments
for the replacement of an implanted device if (1) the device is replaced without cost to the
provider or the beneficiary, (2) the provider receives full credit for the cost of the replaced
device, or (3) the provider receives partial credit equal to or greater than 50 percent of the cost of
the replacement device.

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual explain how a
provider should report no-cost and reduced-cost devices under the OPPS. For services furnished
on or after January 1, 2007, CMS requires the provider to report the modifier “FB” and reduced
charges on a claim that includes a procedure code for the insertion of a replacement device if the
provider incurs no cost or receives full credit for the replaced device.

For 11 of the 30 sampled claims the Hospital received full credit from a device manufacturer but
did not report the required “FB” modifier to reflect the credits received. The Hospital stated that
these errors occurred because, at the time the claims were billed, it did not have policies and
procedures in place to report credits from the device manufacturers. As a result, the Hospital
received overpayments of $38,673.

Outpatient Dental Services

The Manual, chapter 1, section 80.3.2.2, states, “In order to be processed correctly and promptly, a
bill must be completed accurately.” In addition, chapter 4, section 20.4, of the Manual states, “The
definition of service units … is the number of times the service or procedure being reported was
performed.”

For one of two sampled claims, the Hospital incorrectly billed the number of units for an
otherwise Medicare covered dental procedure. Specifically, the Hospital billed for the removal
of two teeth even though it removed only one. The Hospital stated that this error occurred due to
a clerical error. As a result, the Hospital received an overpayment of $468.

                                                  6
RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $107,070, consisting of $67,929 in overpayments for
       12 incorrectly billed inpatient claims and $39,141 in overpayments for 12 incorrectly
       billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

HOSPITAL COMMENTS

In written comments on our draft report, the Hospital concurred with our recommendations. The
Hospital stated that the largest number of mistakes detailed in our report involved previously
identified OIG risk areas. The Hospital also stated that it is committed to ethical and compliant
practices and will continue to address areas specified in the report where human error was the
overriding cause of failure in existing controls. Finally, the Hospital stated that overpaid
amounts have been corrected and resubmitted to the MAC.

The Hospital’s comments are included in their entirety as the Appendix.




                                                7
APPENDIX
                                                                                                                                      Page 1 of4
dJ~l!..                •             APPENDIX: HOSPITAL COMMENTS

-:::I
   · L~
  I rll-
             OhloHealth
                                                                                                          Ethics and Compliance
                                                                                                          180 East Broad Street
                                                                                                          Columbus, Ohio 43215 3707
                                                                                                          6141 544-4200
                                                                                                          wwwohiClhfillth.com
    January 4,2012


    Sheri L. Fulcher
    Regional Inspector General for Audit Services
    Department of Health and Human Services
    Office of Inspector General
    Office of Audit Services, Region V
    233 North Michigan Avenue
    Suite 1360
    Chicago, IL 60601


    Re: Medicare Compliance Review of
       Riverside Methodist Ho.§pital
       Report #A-05-11-00058


    Dear Ms_Fulcher,

              Please accept this correspondence on behalf of Riverside Methodist Hospital
    (RMH) and OhioHealth, the not-for-profit parent corporation ofRl\1H and a multitude of
    other hospitals and healthcare providers comprised ofapproxirnately 21,000 physicians,
    employees and volunteers throughout Ohio. The purpose ofthis communication is to
    comment, per your kind directive, on the above-entitled draft report and the OIG's
    findings and recommendations contained therein.

            Before detailing RMH's concurrence with the findings and recommendations in
    the draft report, it is likely worth noting that, according to publicly available reports of
    similar OIG reviews throughout the United States, RMH appears to have the lowest
    Medicare overpayment amount to date. To be more specific, the OIG's audit spanned
    calendar years 2008,2009 and 2010. The review entailed approximately $1.9 million in
    Medicare payments encompassing 166 inpatient and outpatient encounters. Of the $1.9
    million, it is the OIG's recommendation that RMH refund $67,929 for incorrectly billed
    inpatient encounters and $39,141 related to inaccurately submitted outpatient claims.
    Although OhioHealth would clearly be desirous of having received an OIG audit report
    where no mistakes at RMH had been identified, the organization is pleased that continual
    efforts at ensuring the proper submission of claims in an arena of complex healthcare
    laws, rules and regulations were evidenced and affirmed during the OIG's review.




                        Together we are a faith-b05ed, not-Jor-proflt family of leading health care providers:
RIVERSIDE ME1HODIST HOSPITAL. GRANT MEDICAL CENTER. DOCTORS HOSPITAL. GRADY MEMORIAL HOSP ITAL. DOCTORS HOSPITAl- NELSONVILLE 

                 HARDIN MEMORIAL HOSPITAL. MARION GENERAL HOSPITAL. HOMfREACH • OHIOHEALTH HEALTH CENTER, 

                                                                                              Page 2 of4




      As stated above, RMH and OhioHealth concur with the two OIG
recommendations set forth in the draft report:

                       • 	 Refund to the Medicare contractor $107,070, consisting of
                           $67,929 in overpayments for 12 incorrectly billed inpatient
                           claims and $39,141 in overpayments for 12 incorrectly billed
                           outpatient claims, and

                      • 	 Strengthen controls to ensure full compliance with Medicare
                          requirements.


However, OhioHealth and RMH would like to offer the following observation. In the
OIG's draft report, it is stated that "Overpayments occurred primarily because the
Hospital did not have adequate controls to prevent incorrect billing ofMedicare claims."
Although technically correct for some of the calendar years analyzed, the overall
conclusion does not necessarily reflect Herculean efforts undertaken by OhioHealth
during portions ofthe final year ofthe OIG's review (2010). Efforts specifically related
to inpatient and outpatient manufacturer credits for replaced medical devices, the issue
that caused the majority of the itemized errors in the OIG's draft report.

         In support of the preceding statement, it is noteworthy that the OIG's audit at
RMH focused on ten known risk areas for historical noncompliance and heightened error
rates at hospitals throughout the United States. Ofthe ten risk categories assessed by your
staff at RMH, the OIG concluded that mistakes were made in the following areas:

•      Inpatient and Outpatient Manufacturer Credits for Replaced Medical Devices

•      Inpatient Short Stays

•      Inpatient Transfers

•      Outpatient Dental Services


        Of the total 24 identified erroneous claims associated with the foregoing risk
categories, 19, or 79010, involved manufacturer device credits. The remaining 5 mistaken
submissions resulted from human error (e.g. clerical data entries) rather than, in our
opinion, a lack of adequate internal controls.




                                           - 2 ­

                                                                                                 Page 3 of4




         WhileC0rtcurrit\g with tkeOIG' s nndingsand resulting reeommenaati€)ns,
Olti.oJilealtbw0uld tike ttl note thatthe largest number of mistakes detailed in the draft
rep011 involv~ari$k ar~ that had been previ~uslyidentifi~by anOIG Probe ~udit
initiated by the Offiee0iInspector General's Office of Audit Services in Region I
during 2010. In response to tbatearlier inquiry, Ohi()Healthtook extraordinary steps to
 re-engineer theor~a1'l~ti~n's e.ntire~rocess it\volvingdeviee credits. 'l'beenortn0US
undertaking shed l1ghton how difficult it is for providers to efficiently manage credits
duetotbe~toct'>ot4inate two separate and distinct silos .. patient accounts receivable
andman'Ufactitlrer/vendor·accounts payable; the.latter is clearly not under the c0ntrol or
direction of a provider.

        OhioJilealtb'srespOnse to the OIG Probe ~uditre$Ulted inenhan¢e4
eommunieationprotoeols with device manufacturers..Deficient vendor communication
was undoubtedly the leadlng causeofRMlI's priordiffieulties with the proce$Sing of
credits since it iSJhe manufl,t.cturer that controls a credit determination, not the provider.
In any event, thistejuvenatedproeessreswted in demand:s toml affected vend<>rs to
proviqe OhioHealth accurate and complete devkecr~it reports. This directive; in turn,
significantly imp:rov~ the timeliness ofcredit issuances following device repl(lcement
pro¢~ures. The ensuing pr.ocess, policies, procedures and audit. requirements ror assuring
compliance in>this most difficult area were, on more than one occasion; noted as
cOInnlendable by. your audit staff. As such, OhioHealth opines that, in the latter part of
2010, the third year ofthe review, it did have "adequate controls!o prevent incorrect
billing ofMedticare Claims" specific to the first risk area above. A conclusion that should
certainly.be $UPpQrted by your OAS staff, the Internal Controls QUeStionnaire submitted
to the OIG, and numerous.archival refunds reflecting OhioJileaith's efforts in this area.

        With reganl to the OlG's recommendationtostren~hen controls to ensure full
cQ.mpHatl¢ewithM~dicllferequirements. please<      know that Ohi~Healthisunwavedn.~ in
its comrnitmen.t<to ethical and compliant practices. Theorg~atiortexpends immense
capitalon maititaining an.effective CotrlJ)tiance Program toa$sure both the proper
subtnissionofelaimsandanorgani~ational cu1tW'e. or integrity. f~kermore, the SYStem,
viaedUcati(')l\monitoring~ au4iting, CaseManag~ment A$si~'nment protocol ~CMAP)
impl~l'tlent~t10n, c~nstantuJ)datitigof poIi~ies and,roeedufes, antjt-nentilization of aU
avaUai!rlete¢ftno.()~y a~lieati0n$.e1l41essly $tFivQtoeomP~y witbaUle~~la1'ld
reiUlat~ry     requirements. We will continue·to do so going forward, esp~iany in.those
3reas speeinedin the draft report where human erfOr was tb¢ovemding-caaseor failut-e
111 eX'1stiflg controi$,
                                                                                               Page 4 of4




        In closing, please be advised that all overpaid amounts detailed in the draft report
have been corrected and resubmitted to the MAC. Also, I would be remiss if! did not
acknowledge the professional and courteous nature ofyour audit staff during the review.
RMH and OhioHealth are greatly appreciative 0fthe guidance, patience and assistance
offered by them throughout the course of their engagement.

        Thanking you for the opportunity to provide these comments, and asking that you
not hesitate to contact me if any further information is deemed necessary, I am,



Sincerely yours,




 ndrew S. Quinn, Esq.
Senior Vice President
Chief Ethics and Compliance Officer


cc: David P. Blom, President and Chief Executive Officer, OhioHealth
    Stephen E. Markovich, MD, President, Riverside Methodist Hospital




                                            -4­ 

